                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 112050028                                                                     Page 1 of 1



                                                        Close Out


                 The Federal Financial Reports for an award 1 showed significant expenditures posted to
         the award for the quarter ending March 31 , 2012 - two quarters after the award expired. We
         requested source documentation from the awardee institution, 2 and the institution's detailed
         response provided a reasonable explanation for the post-expiration charges. Accordingly, this
         case is closed with no further action taken.\




NSF OIG Form 2 (11/02)
